United States Government
Department of Energy
memorandum

DATE:      August 19, 1996

REPLY TO
 ATTN OF: IG-1

SUBJECT:     INFORMATION: Report on "Audit of the Department
             of Energy's User Facilities"

TO:     The Secretary

        BACKGROUND:

        The Department of Energy has for years made certain
        designated user facilities available to universities,
        industry, and other research organizations. Due to
        technology transfer efforts and excess capacities,
        even more facilities, such as defense program
        facilities, are being made available to outside
        users. Today, Department user facilities fall into
        one of three categories - designated user facilities,
        other user resources, and Technology Deployment
        Center/User Facilities. The objectives of the audit
        were to determine whether (1) user facility
        agreements were priced to ensure full cost recovery;
        (2) user facility agreement collections were properly
        deposited; and (3) financial assistance provided to
        visiting researchers at designated user facilities
        was allowable and reasonable.

        DISCUSSION:

        We found that Technology Deployment Center/User
        Facility and designated user facility agreements were
        priced in accordance with Department policies.
        However, other user facility agreements were not
        always priced to ensure full cost recovery.
        Agreements executed at Los Alamos National Laboratory
        (Los Alamos) prior to establishment of its Technology
        Deployment Center/User Facilities, and user resource
        agreements executed at the Idaho National Engineering
        Laboratory (INEL) were not always priced
        appropriately. During the period October 1992
        through March 1995, Los Alamos inappropriately waived
        over $725,000 in Department added factor and
        depreciation costs in 41 user facility agreements.
        INEL also inappropriately waived the Departmentms
        added factor and depreciation and priced some
        agreements at zero cost.

        In addition, the audit showed that user facility
        agreement collections were not always properly
        deposited. Los Alamos retained user agreement
        collections in its letter of credit account rather
     than depositing the collections into the Treasury, as
     required by Public Law. As of the end of Fiscal Year
     1995, Los Alamos was holding over $943,000 in user
     facility agreement collections, including about
     $168,000 that should have been deposited to the
     Treasury to offset the Departmentms administration
     appropriation.

     Finally, the audit showed that Sandia National
     Laboratories provided visiting researchers to its
     Combustion Research Facility with financial and
     housing assistance that we questioned as being
     allowable. Sandia provided the visiting researchers,
     primarily foreign nationals, with stipends, furnished
     apartments, and allowances for relocation, travel and
     subsistence expenses at a cost of about $689,000.
     Sandia provided the assistance even though visitors
     were normally expected to be self-supporting.

     Department management generally agreed with our
     findings and proposed corrective actions on the
     recommendations in the report.

                                        (Signed)

                                       John C. Layton
                                       Inspector General

     Attachment

     cc: Deputy Secretary
        Under Secretary




                   U.S. DEPARTMENT OF ENERGY
                  OFFICE OF INSPECTOR GENERAL




                         AUDIT OF
        THE DEPARTMENT OF ENERGYmS USER FACILITIES


     The Office of Inspector General wants to make the
 distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be
available electronically through the Internet five to seven
    days after publication at the following alternative
                        addresses:

         Department of Energy Headquarters Gopher
                            gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vml.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home
                            Page
             http://www.hr.doe.gov/refshelf.htm1

  Your comments would be appreciated and can be provided on
     the Customer Response Form attached to the report.

               This report can be obtained from the
                     U.S. Department of Energy
          Office of Scientific and Technical Information
                            P.O. Box 62
                    Oak Ridge, Tennessee 37831


Report Number:        DOE/IG-0395

Western Regional Audit Office
Albuquerque, NM 97185-5400

Date of Issue:        August 1996



                                AUDIT OF
               THE DEPARTMENT OF ENERGYmS USER FACILITIES


                            TABLE OF CONTENTS


SUMMARY ...........................................          1

PART I         - APPROACH AND OVERVIEW ..................    3

          Introduction ...............................       3

          Scope and Methodology ......................       3

          Background .................................       4

          Observations and
          Conclusions.................................       5

PART II        - FINDINGS AND RECOMMENDATIONS ...........    6

          1.     Pricing of User Facility
                 Agreements..............................    6

          2.     Handling of User Facility Agreement
                 Collections ............................   10

          3.     Assistance to Visiting
           Researchers.............................   13

PART III - MANAGEMENT AND AUDITOR COMMENTS ........   17
                 U. S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES


                          AUDIT OF
         THE DEPARTMENT OF ENERGYmS USER FACILITIES


Audit Report Number: DOE/IG-0395

                           SUMMARY

   The Department of Energy (Department) has for years made
certain designated research facilities available to
universities, industry, and other research organizations.
Due to technology transfer efforts and excess capacities,
even more facilities, such as defense program facilities,
are being made available to outside users. Today,
Department user facilities fall into one of three
categories - designated user facilities, other user
resources, and Technology Deployment Center/User Facilities.
The objectives of the audit were to determine whether (1)
user facility agreements were priced to ensure full cost
recovery; (2) user facility agreement collections were
properly deposited; and, (3) financial assistance provided
to visiting researchers was allowable and reasonable.

   We found that the Department priced Technology Deployment
Center/User Facility and designated user facility agreements
in accordance with Department policies. However, other user
facility agreements were not always priced to ensure full
cost recovery, and collections were not always properly
deposited. In addition, our audit showed that at one
designated user facility, visiting researchers were provided
with financial and housing assistance that we questioned as
being allowable.

   Los Alamos National Laboratory (Los Alamos) user
agreements executed prior to establishment of its Technology
Deployment Center/User Facilities, and Idaho National
Engineering Laboratory (INEL) user resource agreements were
not always priced appropriately. During the period October
1992 through March 1995, Los Alamos inappropriately waived
Departmental added factor and depreciation costs of over
$725,000 in 41 user agreements. INEL also inappropriately
waived the Departmentms added factor and depreciation and
priced some agreements at zero cost.

   In addition, the audit showed that Los Alamos did not
properly deposit collections resulting from user facility
agreements executed prior to establishment of its Technology
Deployment Center/User Facilities. Los Alamos retained user
agreement collections in its letter of credit account rather
than depositing the collections into the Treasury. As of
the end of Fiscal Year 1995, Los Alamos was holding over
$943,000 in user facility agreement collections, including
about $168,000 that should have been deposited to the
Treasury to offset the Departmentms administration
appropriation.

   Finally, the audit showed that during Fiscal Years 1994
and 1995, Sandia National Laboratories (Sandia) provided 34
visiting researchers to its Combustion Research Facility
with financial and housing assistance that we questioned as
being allowable. Sandia provided the visiting researchers,
primarily foreign nationals, with stipends, apartments, and
allowances for relocation, travel, and subsistence expenses
at a cost of about $689,000. Sandia provided the assistance
even though visitors were normally expected to be self-
supporting.

   Department management generally agreed with the findings
and agreed to initiate action on the recommendations in the
report. Management comments on our findings are included in
Part III of this report.


                          ____(Signed)_______________
                          Office of Inspector General


                           PART I

                    APPROACH AND OVERVIEW

INTRODUCTION

   The Department has specialized facilities, collectively
referred to as user facilities, that are available for use
by industry and academia. The objectives of the audit were
to determine whether (1) user facility agreements were
priced to ensure full cost recovery; (2) user facility
agreement collections were properly deposited; and (3)
financial assistance provided to visiting researchers at
designated user facilities was allowable and reasonable.

SCOPE AND METHODOLOGY

   The audit was conducted at the Department's Headquarters;
the Albuquerque, Idaho, Oakland, and Oak Ridge Operations
Offices; the Idaho National Engineering Laboratory; Lawrence
Livermore, Los Alamos, and Sandia National Laboratories;
and, the Y-12 Plant. The audit was conducted between June
1995 and March 1996.

     To accomplish the audit objectives, we:

     *    reviewed applicable laws, regulations, policies, and
          procedures;

     *    reviewed selected user facility agreements;
     *       reviewed the accounting for user facility agreement
             collections; and,

     *       interviewed Department and laboratory officials.

   The audit did not rely extensively on computer-processed
data. Therefore, we did not fully examine the reliability
of computerized data used. The audit was conducted
according to generally accepted Government auditing
standards for performance audits, which included tests of
internal controls and compliance with laws and regulations
to the extent necessary to satisfy the audit objective.

   We assessed significant internal controls with respect to
the audit objectives. Because our review was limited, it
would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit.
Internal control weaknesses disclosed by the audit are
discussed in Part II. Department officials waived an exit
conference.

BACKGROUND

   The Federal Government has for many years fostered
scientific and technical education and research to improve
Americams competitive edge in the international marketplace.
In recent years, it has become important to continue
developing new technologies and to transfer these
technologies to industry. Due to this technology transfer
effort and excess capacities, the Department has opened many
of its facilities to universities, industry, and other
research organizations. Today, Department user facilities
fall into one of the following categories.

Designated User Facilities

   Designated user facilities originated in the 1970s under
the Office of Energy Research. The term "designated user
facility" is used to describe sophisticated scientific
facilities, equipment, software and expertise that is
available at Department laboratories for use by industry and
academia.

Other User Resources

   Other research facilities, not officially designated as
user facilities, are also available to outside users. These
"other user resources" include major scientific
instrumentation, laboratories and other technical
facilities, whose primary purpose is to serve the needs of
in-house laboratory staff, but which can be shared as a dual
benefit with the outside technical community. Designation
of such resources as available to outside users is subject
to local management decisions.

Technology Deployment Center/User Facilities
   Technology Deployment Center/User Facilities are
facilities, capabilities or resources used at laboratories
or production facilities whose primary function is to
satisfy Department needs. In May 1993, Defense Programs
officially designated the Oak Ridge Centers for
Manufacturing Technology at the Y-12 Plant as the first
Technology Deployment Center/User Facility. In February
1994, the Assistant Secretary for Defense Programs delegated
to the Albuquerque Operations Office the authority to
approve Technology Deployment Center/User Facilities for its
laboratories and production plants. Since then, the
Department has delegated authority to approve Technology
Deployment Center/User Facilities to the Oakland Operations
Office.

   The number of facilities by type at each location, as of
December 31, 1995, is as follows:

                        Designated   Other       Technology
                        User         User        Deployment
Location                Facilities Resources         Centers

Sandia                   2                          19
Los Alamos               6             0*           44
Oak Ridge               12
Lawrence Livermore                                  3
INEL                                   71
Y-12                                                1

(*) Prior    to having facilities designated as Technology
Deployment   Centers, Los Alamos categorized many of its user
facilities   as Other User Resources. In April 1994, Los
Alamos had   81 facilities in this category.

User Facility Agreements

   Although all three types of user facilities are available
to outside users, there is one significant difference
between them: the price for using them. Designated user
facilities are generally available to industry and academia
free of charge if the research performed is nonproprietary
(not protected by secrecy, patent, or copyright) and of
interest to the Department. For proprietary use, the
Department charges users on a full cost recovery basis.
Pricing for using other user resources and Technology
Deployment Center/User Facilities, on the other hand, is
based on full cost recovery including depreciation and added
factor, irrespective of whether the research is proprietary
or nonproprietary.

OBSERVATIONS AND CONCLUSIONS

   Our audit showed that Technology Deployment Center/User
Facility and designated user facility agreements were priced
appropriately at the locations visited. However, other user
facility agreements were not always priced at full cost and
collections were not always handled properly. In addition,
our audit showed that at one designated user facility,
visiting researchers were provided with financial and
housing assistance that we questioned as being allowable.
Our findings and recommendations are discussed in detail in
Part II of this report.

   When preparing its yearend assurance memorandum on
internal controls, the Albuquerque and Idaho Operations
Offices should consider our finding regarding full cost
recovery. Albuquerque should also consider our findings
regarding the handling of user facility agreement
collections and assistance to visiting researchers.

                             PART II

                  FINDINGS AND RECOMMENDATIONS


1.   Pricing of User Facility Agreements

FINDING

   Department of Energy regulations require that the price
for materials and services sold to persons and organizations
outside the Federal Government shall be the Governmentms
full cost. We found, however, that Los Alamos National
Laboratory (Los Alamos) and the Idaho National Engineering
Laboratory (INEL) did not always price user facility
agreements at full cost. Los Alamos inappropriately waived
Department added factor and depreciation costs on user
facility agreements executed prior to establishment of its
Technology Deployment Center/User Facilities. INEL also
inappropriately waived added factor and depreciation costs,
and did not recover general and administrative and overhead
costs on some agreements. Los Alamos and INEL priced the
agreements improperly because (1) Los Alamos assumed that
certain agreements were exempt from full cost recovery; and
(2) INEL implemented policies, approved by the Idaho
Operations Office, that allowed INEL to price agreements at
less than full cost. As a result, Los Alamos did not
recover about $725,000 due to the Treasury. The total
amount of costs that INEL did not recover could not be
determined.

RECOMMENDATIONS

1. We recommend that the Manager, Albuquerque Operations
Office, direct Los Alamos to:

      *    establish written policies and procedures to ensure
           that user facility agreements are priced appropriately; and,

      *    reimburse the U.S. Treasury for Department added factor
           and depreciation costs that Los Alamos waived without
           Department approval.
2.    We recommend that the Manager, Idaho Operations Office,
     direct INEL to:

       *     establish policies and procedures to ensure full cost
             recovery on future user agreements; and,

       *     attempt to renegotiate existing user agreements to
             recover costs and specify facility usage.

MANAGEMENT REACTION

   Albuquerque and Idaho Operations Office management
generally concurred with the recommendations. Part III of
this report includes detailed management and auditor
comments.

                        DETAILS OF FINDING

   Department regulation 10 CFR 1009, "General Policy for
Pricing and Charging for Materials and Services Sold by
DOE," states that the Departmentms price for materials and
services sold to persons and organizations outside the
Federal Government shall be the Governmentms full cost.
The Department implements this regulation in DOE Order
2110.1A, "Pricing of Departmental Materials and Services."
The order defines full cost as all direct and allocable
costs, including, but not limited to, the following cost
elements:

             direct labor (including fringe benefits), direct
           materials, power and utilities, and maintenance;

             indirect costs, i.e., common costs that cannot be
           directly assigned to specific cost objectives;

             contractor profit/fees and management allowances paid
           by the Department;

             depreciation, including depreciation costs that are
           directly associated with facilities and equipment utilized,
           and allocated depreciation costs for support and general
           facilities and equipment; and,

             added factor, which includes general and administrative
           costs and other support costs that are incurred for the
           benefit of the Department.

   The Department's added factor and depreciation may be
waived in certain circumstances. According to Departmental
guidance dated October 1, 1991, Heads of Field Elements may
approve requests for waiver of Departmental added factor and
depreciation if a specifically identified, currently funded
Department program derives a direct benefit as a result of
the proposed work. The Department can also waive added
factor and depreciation for small businesses and nonprofit
organizations. In 1994, the Office of Management and Budget
granted the Department's request for a waiver of added
factor and depreciation for all small businesses and
nonprofit organizations participating in funds-in
agreements, such as user facility agreements. The waiver
was effective October 1, 1994.

PRICING OF AGREEMENTS AT LOS ALAMOS AND INEL

    Los Alamos did not price many of its user facility
agreements at full cost. Los Alamos entered into 54 user
facility agreements during Fiscal Years 1993 through 1995.
In 13 of the 54 agreements, Los Alamos charged the
Departmentms full cost, including added factor and
depreciation, or requested and received Department approval
to waive costs. However, in the remaining 41 agreements Los
Alamos inappropriately waived the Department's added factor
and depreciation costs. Generally, agreements stated that
the Department had approved waivers of the added factor and
depreciation. However, Los Alamos never submitted waiver
requests to the Department for approval.

   INEL also did not always price user agreements
appropriately. As of December 20, 1995, INEL had entered
into 11 user facility agreements. INEL charged the
Departmentms full cost in only 2 of the 11 agreements and
waived Department added factor and depreciation in 4 others.
INEL waived added factor and depreciation costs in 3 of
these 4 because the users were small businesses, and in the
fourth because the proposed work was nonproprietary. INEL
priced its remaining five agreements at zero cost. The five
agreements did not even include charges to recover facility
maintenance or utility costs.

REASONS FOR NOT FULLY RECOVERING COSTS

   Prior to establishing its Technology Deployment
Center/User Facilities, Los Alamos did not include added
factor and depreciation costs on user facility agreements
involving nonproprietary work. According to a Los Alamos
official, the Laboratory did not charge users for added
factor and depreciation because the Department had granted
Los Alamos a blanket waiver for such costs on nonproprietary
agreements. However, Los Alamos could not provide
documentation to support that the Department had ever
granted such a waiver. In April 1995, Los Alamos began
pricing agreements in accordance with Technology Deployment
Center/User Facility guidance established by Albuquerque.
The guidance required full cost recovery, unless waived by
the Department. Los Alamos, however, did not establish its
own written policies and procedures to ensure consistent
compliance.

   INEL's User Resource Program, approved by the Idaho
Operations Office, implemented policies that affected full
cost recovery. For example, it was INEL's policy to waive
added factor and depreciation on nonproprietary agreements.
In addition, INELms pricing policy was intended to recover
only the incremental costs that users incurred. Facility
maintenance or lease costs were not to be billed to users.
INEL would price labor purchased by users at the fully
burdened rate. However, if no labor hours were expended,
INELms system for capturing costs did not have a mechanism
for recovering organizational burden, common support and
general and administrative costs.

   Other INEL policies that affected full cost recovery were
those that allowed INEL employees to use user facilities for
personal business and permitted users to hire INEL employees
to act as the users. INEL employees were required to
perform such work on their off time. However, because users
were not purchasing INEL labor hours, costs such as common
support and organizational burden were not being recovered.

   Since our audit, INEL placed its User Resources Program
in a "hold" status and proposed policy changes to include
pricing user activity at full cost. It is unknown whether
the INEL Operations Office approved these changes.

COSTS NOT RECOVERED

   Los Alamos did not recover $725,336 in added factor and
depreciation costs that were due to the U.S. Treasury.
Department policy required that collections of Department
added factor and depreciation be deposited into the
Departmental Administration Appropriation special receipt
account and that the funds be offset against the
Departmentms administration appropriation.

   We could not determine the amount of costs that INEL did
not recover from the five agreements that it priced at zero
cost. This occurred because the agreements did not specify
anticipated usage, and actual usage was not recorded.
Without knowing projected or actual usage, we could not
calculate what INEL should have charged and recovered for
organizational burden, common support, general and
administrative costs, and Department added factor and
depreciation.

   We determined that INEL should have recovered $2,794 from
one agreement in which it did not charge the user for added
factor and depreciation costs. INEL waived the added factor
and depreciation costs because the proposed user activity
was nonproprietary and it was INELms policy to exclude such
costs when pricing nonproprietary agreements. It is unclear
whether the Department can hold INEL accountable for not
recovering full costs on the above mentioned agreements,
since INEL used pricing policies that were approved by the
Idaho Operations Office.

2.   Handling of User Facility Agreement Collections

FINDING

   Public Law 95-91 requires that proceeds from the use of
Department equipment and facilities by others be deposited
in the Treasury. However, we found that for agreements
executed prior to April 1995, Los Alamos deposited its user
facility agreement collections into its letter of credit.
Los Alamos used some of the funds to offset user facility
agreement costs and retained portions representing
Department added factor and depreciation until users
completed agreement work. This condition occurred because
the Department did not establish specific guidance for
handling user facility agreement collections. As of the end
of Fiscal Year 1995, Los Alamos was holding over $943,000 in
user facility agreement collections. This included about
$168,000 in Department added factor and depreciation that
should have been offset against the Departmentms
administration appropriation.

RECOMMENDATIONS

1.     We recommend that the Office of Chief Financial Officer
     establish Departmentwide financial policy guidance
     regarding user facility agreement collections.

2.     We recommend that the Manager, Albuquerque Operations
     Office direct Los Alamos to remit the balance of retained
     user facility agreement funds to the Treasury.

MANAGEMENT REACTION

   The Office of Chief Financial Officer concurred with the
recommendation to establish financial policy guidance
regarding user facility agreement collections. Albuquerque
Operations Office management concurred with the
recommendation to direct Los Alamos to remit the balance of
retained user facility agreement funds to the Treasury.
Part III of this report includes detailed management and
auditor comments.

                        DETAILS OF FINDING

   Public Law 95-91, the Department of Energy Organization
Act, establishes administrative provisions over the use of
Department facilities. Section 649 states that proceeds
resulting from the use of facilities by public and private
agencies, corporations, associations, or other organizations
or individuals be deposited in the Treasury. These proceeds
may be used to pay directly the costs of the equipment or
facilities provided. According to the Departmentms policies
on reimbursable work, portions of reimbursements that
represent Department added factor and depreciation are to be
deposited into the Departmental Administration Appropriation
special receipt account and offset against the Departmentms
administration appropriation.

COLLECTIONS AT LOS ALAMOS

   For agreements executed prior to April 1995, Los Alamos
did not deposit user facility agreement collections to the
Treasury. Instead, it deposited such collections into its
letter of credit account. In Fiscal Years 1993 through
1995, Los Alamos collected and deposited about $3.4 million
to its letter of credit. Los Alamos accounted for the
proceeds, which represented advance payments from sponsors,
by crediting the funds to Funds-Held-for-Others accounts
assigned to each user. Each month, Los Alamos debited these
accounts to reduce the amount of the advance by the amount
of the previous monthms costs. Since establishing its
Technology Deployment Center/User Facilities, Los Alamos has
deposited user agreement collections into the Treasury.

   For those agreements in which Los Alamos collected
Department added factor and depreciation, Los Alamos
credited the portion of the added factor and depreciation to
a separate Funds-Held-for-Others account. It was Los
Alamosm practice to retain these funds until the agreements
were completed. Once completed, Los Alamos would then
deposit the added factor and depreciation into the U.S.
Treasury.

DEPARTMENT POLICIES AND PROCEDURES

   The Department's accounting policies and procedures did
not implement Public Law 95-91ms requirements for depositing
user facility agreement proceeds. Department Order 2200.6A,
Chapter IX, Reimbursable Work, Revenues, and Other
Collections, specifically excluded user charges from its
policies and procedures applicable to reimbursable work.
However, nowhere else in the Order was the treatment of user
charges discussed. The same is true of Chapter 13 of the
Departmentms Accounting Handbook, which replaced the Order
in October 1995. This happened even though the Department
established a working group in 1994 to develop financial
policy related to user facilities.

   Albuquerque made an effort to establish guidance
regarding user facility agreement collections. In February
1995, Albuquerquems Financial Management Division
established policy guidance on the accounting and budgeting
of user facility agreements. The policy, which applied to
Albuquerquems contractors, required Los Alamos to treat user
facility agreements similar to Funds-In Agreements and
Cooperative Research and Development Agreements. The
guidance also stated that the Department would make funds
available to contractors in the Approved Funding Plan to the
extent that contractors notified Albuquerque that the
sponsorms cash advance had been received and deposited to
the proper appropriation fund. Although this policy
provided for administrative control over user facility
agreement funds collected by Albuquerque's contractors,
Department-wide policies and procedures are necessary to
ensure consistency throughout the Department.

COLLECTIONS HELD BY LOS ALAMOS

   As of the end of Fiscal Year 1995, Los Alamos was holding
$943,041 of the $3.4 million collected in Fiscal Years 1993
through 1995. The amount included $168,250 in Department
added factor and depreciation that was due to the U.S.
Treasury. Los Alamos planned to retain the collections and
use a portion to offset costs incurred in completing open
agreements. Once users completed their agreements, Los
Alamos planned to deposit funds representing added factor
and depreciation with the U.S. Treasury.

3.   Assistance to Visiting Researchers

FINDING

   Visitors who perform research at the Department's
Designated User Facilities are to be self-supporting. In
Fiscal Years 1994 and 1995, however, Sandia National
Laboratories provided financial and housing assistance to 34
of 83 long-term visiting researchers at its Combustion
Research Facility (CRF). This condition occurred because of
a lack of controls in the CRF's visitor program and Sandiams
interpretation of its contract with the Department. As a
result, we question the allowability of about $689,000
incurred during Fiscal Years 1994 and 1995.

RECOMMENDATIONS

   We recommend that the Manager, Albuquerque Operations
Office:

      *    disallow and recover the cost of financial and housing
           assistance provided to visitors at Sandiams Combustion
           Research Facility; and,

      *    direct Sandia to establish policies and procedures
           regarding visiting researchers.

MANAGEMENT REACTION

   Albuquerque Operations Office management generally
concurred with the recommendation and proposed to conduct a
"for cause" review in order to make a determination on the
allowability of the questioned costs. Albuquerque
management also agreed to direct Sandia to establish
policies and procedures for visiting researchers. Part III
of this report includes detailed management and auditor
comments.

                      DETAILS OF FINDING

   Visitors who wish to perform research at Department
designated user facilities are expected to support
themselves. At Sandia, invitation letters to visitors of
the CRF state that visitors are normally to be self-
supporting. At designated user facilities located at Oak
Ridge and Los Alamos, visitors are responsible for their
travel and living expenses. In addition, Sandiams contract
with the Department requires that Sandia accommodate
visitors, but is silent with regard to providing assistance
to visitors.

FINANCIAL AND HOUSING ASSISTANCE TO VISITORS

   In Fiscal Years 1994 and 1995, the CRF hosted 83 long-
term, visiting researchers. Even though visiting
researchers were to ordinarily support themselves, Sandia
provided stipends; housing; and relocation, travel and
living allowances to 34 visitors, at a cost of about
$689,000. Fifteen of the 34 visitors received more than one
type of assistance.

Stipends

   Sandia provided $418,916 in stipends to 15 of the 83
visiting researchers. Sandia provided the stipends to allow
visiting researchers to participate in research for the
purpose of educational enhancement and professional
development. The stipends varied in amount and length of
time. For example, one individual received a $3,000 stipend
for one month, while another received $4,442 per month for
almost two years.

   Foreign visitors benefited the most from these stipends.
Of the 15 visitors who received stipends, 9 (60 percent)
were not U.S. citizens. The cost of stipends provided to
foreign nationals was $304,423, which accounted for over 72
percent of the $418,916 in stipends that Sandia provided.

Housing Assistance

   Sandia provided housing to visiting researchers at a cost
of $127,298 in Fiscal Years 1994 and 1995. Sandia leased
eight apartments with the intent of subleasing them to
Sandia-sponsored visitors, such as cooperative program
students. Yet, Sandia allowed 16 visiting researchers, and
in some cases their families, to reside in the apartments at
no cost. One visitor was scheduled to receive free housing
from July 1994 to July 1996. Sandia furnished the
apartments, which consisted of five two-bedroom and three
three-bedroom properties. In addition, Sandia paid for
utilities, local telephone service, cable television, and
cleaning expenses. Sandia only required that visitors pay
for long distance telephone calls and a set-up fee. Total
costs associated with the apartments in Fiscal Years 1995
and 1994 were $104,969 and $100,991, respectively. Rent
receipts, reimbursements for long distance telephone calls,
and non-refundable set-up fees were $34,274 in Fiscal Year
1995. We projected Fiscal Year 1994 receipts to be $44,388,
based on average deposits made in the last four months of
the Fiscal Year. The net costs incurred by Sandia for
Fiscal Years 1994 and 1995 were $127,298.

   As in stipends, foreign nationals benefited the most from
the free housing. Ten of the 16 visiting researchers who
received housing at no cost were not U.S. citizens.
Relocation, Travel, and Living Allowances

   Sandia provided $78,215 in relocation, travel, and living
allowances to 20 visiting researchers during Fiscal Years
1994 and 1995. Allowances consisted primarily of flat
weekly or monthly allowances. Recipients were paid without
having to itemize actual expenses. For example, a visitor
from the University of California-Irvine received $750 a
week for transportation and subsistence expenses for 17
weeks without having to account for his actual expenses.

General & Administrative Costs

   Sandia incurred $64,737 to provide financial assistance
to visiting researchers. Sandia incurred general and
administrative costs because Sandia used a third party,
Associated Western Universities, to administer the payment
of stipends and related relocation and travel assistance to
visiting researchers. Associated Western Universities
charged Sandia a 14.3 percent general and administrative
rate for their services. In at least one case, Sandia used
Associated Western Universities to administer the payment of
a stipend because the visiting researcher was not a U.S.
citizen and Sandia could not pay the individual directly.

Visitors Provided With Multiple Types of Assistance

   Sandia provided more than one type of assistance to 15 of
the 34 visiting researchers who received assistance. For
example, Sandia provided nine visiting researchers with
stipends and travel or relocation allowances. Sandia
provided a visiting researcher from Germany with a monthly
stipend of $800, a $800 relocation allowance, a $3,500
travel allowance, and a furnished apartment. This was in
addition to $27,000 that the visitor was to receive from an
organization in Germany.

CONTROLS OVER VISITING RESEARCHERS

   Visiting researchers received financial, housing and
travel assistance because of a lack of controls in the CRF's
visitor program and Sandiams broad interpretation of its
contract with the Department.

   According to a CRF official, Sandia provided assistance
to visitors only when it was convinced that assistance was
warranted by an increase in productivity. However, we could
not evaluate how such determinations were made. Sandia had
no written policies or procedures for determining when
assistance was warranted. Sandia also had no policies or
procedures for determining the amount or types of assistance
to be provided.

   Financial assistance funded through Associated Western
Universities was not approved by the Department. Sandia
used federal agency orders to send funds to Associated
Western Universities. Sandia was required to submit such
orders to the Departmentms Kirtland Area Office for
approval. However, according to a Kirtland Area Office
official, Sandia did not submit federal agency orders for
Associated Western Universities to the Department for
approval.

   Sandia interpreted its contract with the Department to
allow housing to visiting researchers. In January 1995,
Sandiams Internal Audit Department questioned $48,246
associated with the apartments Sandia leased in Livermore.
Management disagreed and stated that while Sandia's contract
with the Department was silent regarding the particulars of
"accommodation," it could be interpreted to include the
apartments.

QUESTIONED COSTS

   We question the appropriateness and allowability of costs
that Sandia incurred in providing assistance to visiting
researchers. A basic premise of visitor programs at
designated user facilities, including Sandia's CRF, is that
visitors are to be self-supporting. In addition, Sandiams
contract is silent with regard to providing assistance to
visitors. Nevertheless, Sandia provided stipends, housing,
and relocation and travel allowances to 34 visiting
researchers during Fiscal Years 1994 and 1995. Foreign
visitors benefited the most. We question $689,166 that
Sandia incurred in providing financial and housing
assistance to visiting researchers during Fiscal Years 1994
and 1995.

                          PART III

               MANAGEMENT AND AUDITOR COMMENTS

   Department of Energy management generally concurred with
our report. Responses were received from the Albuquerque
Operations Office (Office of Energy, Science and
Technology); Idaho Operations Office (Office of Chief
Financial Officer); and the Department's Office of Chief
Financial Officer (Office of Compliance and Audit Liaison
Division). A summary of management comments and our
responses follows.

1.   Pricing of User Facility Agreements

   Management Comments. Albuquerque agreed to direct Los
Alamos to establish written policies and procedures to
ensure that user facility agreements are priced
appropriately. Albuquerque also agreed to direct Los Alamos
to reimburse the Treasury for unwaived added factor and
depreciation costs but stated that the amount to be
reimbursed may be reduced. According to Albuquerque's
comments, 5 of the 41 agreements in which Los Alamos waived
added factor and depreciation costs without Department
approval were believed to be with small businesses or non-
profit organizations, thus making them eligible for waivers.
Upon certification of small business or non-profit status
for the 5 agreements, the amount of costs that Albuquerque
will direct Los Alamos to reimburse to the Treasury will be
reduced by $99,987 to $625,349.

   Idaho Operations Office management agreed to direct INEL
to establish policies and procedures to ensure full cost
recovery on future user agreements. The practice of
charging full cost, where required by regulation, was
implemented by INEL's management and operating contractor on
March 1, 1996. The Idaho Operations Office will officially
approve this practice by August 15, 1996.

   Idaho Operations Office management partially concurred
with the recommendation to direct INEL to attempt to
renegotiate existing user facility agreements. Before
attempting to renegotiate any agreement, Idaho will collect
information that will provide estimates of projected usage
of facility users. The benefit to the Government of
recovering full costs will be weighed against the cost of
renegotiating existing user agreements, including the cost
of possible loss of credibility and goodwill. If warranted,
Idaho will attempt to renegotiate the agreements.

   Auditor Comments. Management's comments and proposed
actions are responsive to the recommendations. However,
Albuquerque and Idaho management did not provide target
dates for completing all of the proposed actions.

2.   Handling of User Facility Agreement Collections

   Management Comments. Management concurred with the
recommendations. The Office of Chief Financial Officer
agreed to develop appropriate financial policy guidance
regarding user facility agreement collections for inclusion
in the Departmentms Accounting Handbook. The target date
for issuance is January 31, 1997. Albuquerque management
concurred with the recommendation to direct Los Alamos to
remit the balance of retained user facility agreement funds
to the Treasury. Management stated that Los Alamos had
agreed to remit the retained funds to the Treasury by the
end of Fiscal Year 1996. In addition, Los Alamos will
conduct an internal review to ensure that the practice of
retaining funds is not in effect in other funds-in programs.

   Auditor Comments. Management's comments and proposed
actions are responsive to the recommendations.

3.   Assistance to Visiting Researchers

   Management Comments. Albuquerque management generally
concurred with the recommendation. Management proposed to
conduct a "for cause" review of the operation of the
Combustion Research Facility with emphasis on the questioned
costs. The review will be conducted by management using
contract, financial, and program experts. The "for cause"
review is expected to begin by mid-August 1996 and be
completed by the end of November 1996. Management has also
agreed that policies and procedures concerning visiting
researchers need to be improved and supplemented.
Albuquerque has already initiated talks with Sandia
regarding this issue. New procedures will start immediately
and should be fully implemented by the end of Fiscal Year
1996.

   Auditor Comments. Management's comments and proposed
actions are responsive to the recommendation.

                             IG Report No.   DOE/IG-0395




                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please
include answers to the following questions if they are
applicable to you:

     1.   What additional background information
          about the selection, scheduling, scope,
          or procedures of the audit or inspection
          would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have
          been included in this report to assist
          management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have
          been helpful?

Please include your name and telephone number so that
we may contact you should we have any questions about
your comments.

Name ____________________________
Date_____________________

Telephone _______________________
Organization_____________

When you have completed this form, you may telefax it
to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
